No. 20-1540
IN THE SUPREME COURT OF THE
UNITED STATES
VICTOR J. EDNEY JR. - PETITIONER
versus
EONDRA LAMONE HINES; OFFICER JORDAN WENKMAN; OFFICER BOBBY
KING; SERGEANT DAVID CONLEY; SERGEANT KEITH VAUGHAN RESPONDENT
“PETITION FOR REHEARING”
PROOF OF SERVICE
I Victor J. Edney Jr. petitioner pro se, certifies that on the fourteenth day of
August, Twenty-Twenty one, as required by the Supreme Court of the United States
Rule 29.5-1 have served the enclosed petition for rehearing to the Clerk’s Office; by
delivery of the United States Postal Service first-class mail to:

SUPREME COURT OF THE UNITED STATES OFFICE OF THE CLERK
1 First Street, N.E.
Washington, DC 20543-0001
202-479-3011

I declare under penalty of perjury that the petition for rehearing is presented in
good faith and not for delay.

